                                                               UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General




                                                       Office of Audits
Office of Inspector General



                                      Audit of Contracting Officers''
                               Exceeding Delegated Procurement Authority

                                           Report Number AUD/CG-12-26, March 2012




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. § 552. Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.



                                                              UNCLASSIFIED
«< Tear out



                   Spotlight: Audit of Contracting
                   Officers'''
                           ' Exceeding Delegated
                   Procurement Authority
                   Office ofInspector General
AUD/CG-12-26




Why OIG Conducted This Audit                    the normal course of performing their
                                                assigned functions, to prevent or detect
Kearney & Company, P.C. (Kearney)
                                                and correct misstatements on a time! y
was separately cngaged to audit the
                                                basis.
financial statements of the Department
as of September 30, 20 I O. In planning         Objectives
and performing the financial statement
audit work, Kearney conducted testing           Kearney conducted a performance
of the internal controls over the               audit to quantifY and determine the
Department's procurement and                    extent to which COs were exceeding
payment processes.                              their delegated procurement authority.
                                                We also identified the amount of
        Kearney's test work over
                                                obligations related to Department
internal controls related to these
                                                contract actions (excluding grants and
processes identified a deficiency
                                                cooperative agreements) that exceeded
related to the controls over contract
                                                the delegated procurement authorities
authority delegated to Contracting
                                                of the COs and therefore represented
Officers (CO). A deficiency in
                                                unauthorized non-binding agreements.
internal control exists when the design
or operation of a control does not
allow management or employees, in
What OIG Determined
Based on Kearney' s review of 63,551 domestic contract actions, totaling $19.2
billion, entered into by the Department from FY s 2008-2010, we found that the
impact of unauthorized commitments generated by domestic COs exceeding their
warrant authority was minor. Kearney's testing did confirm, however, that 21
domestic contract actions were not properly ratified and that certain controls related
to prevention and monitoring of unauthorized commitments and warranted authority
needed to be strengthened.


OIG Recommended
OIG made recommendations to contracting authorities in the Bureau of
Administration that focused on improving internal controls within current systems
and improving processes related to domestic contract actions.

«< Tear out
                                                               United States Department of State
                                                               and the Broadcasting Board of Governors

                                                               Officp of Insppctor Gen.eral




                                             PREFACE

        This report is being transmitted pursuant to the Inspector General Act of 1978, as
amended, and Section 209 of the Foreign Service Act of 1980, as amended. It is one of a series
of audit, inspection, investigative, and special reports prepared as part of the Office of Inspector
General's (OIG) responsibility to promote effective management, accountability, and positive
change in the Department of State (Department) and the Broadcasting Board of Governors.

        This report addresses compliance with Federal and Department regulations for
contracting officers and specific requirements for contracting officers not to exceed their
delegated procurement authorities. The report is based on interviews with employees and
officials of relevant agencies and institutions, direct observation, and a review of applicable
documents.

       orG contracted with the independent public accountant Kearney & Company, P.c., to
perform this audit. The contract required that Kearney & Company perform its audit in
accordance with guidance contained in the Government Auditing Standards, issued by the
Comptroller General of the United States. Kearney & Company ' s report is included.

        Kearney & Company determined that for domestic contract actions totaling $19.2 billion
over a 3-year period, the Department was in compliance with applicable regulations and that few
contracting officers exceeded their warrant authority. The report did recognize areas to
strengthen related internal controls.

        OIG evaluated the nature, extent, and timing of Kearney & Company's work; monitored
progress throughout the audit; reviewed Kearney & Company's supporting documentation;
evaluated key judgments; and performed other procedures as appropriate. orG concurs with
Kearney & Company's findings , and the recommendations contained in the report were
developed on the basis of the best knowledge available and were discussed in draft form with
those individuals responsible for implementation. orG's analysis of management's response to
the recommendations has been incorporated into the report. OIG trusts that this report will result
in more effective, efficient, and/or economical operations.

        I express my appreciation to all of the individuals who contributed to the preparation of
this report.                                                        ~

                                       /fOt1.?::2 

                                         Harold W. Geisel
                                         Deputy Inspector General
                                        UNCLASSIFIED



Audit of Contracting Officers' Exceeding Delegated Procurement Authority


Office of Inspector General
U.S. Department of State
Washington, D.C.


Kearney & Company, P.C. (referred to as “we” in this letter), is pleased to submit this
performance audit report related to the evaluation of the Department of State’s (Department)
extent of contracting officers (CO) exceeding their delegated procurement authority. This audit
was requested by the Department’s Office of Inspector General (OIG) as a result of a control
deficiency identified during the FY 2010 financial statement audit of the Department.

This audit was designed to meet the objectives identified in the section “Audit Objectives” of the
report and in Appendix A, “Scope and Methodology,” except where specific limitations were
noted. As of the date of this report, we were unable to complete audit procedures over all
contract actions in our scope. Sufficient audit evidence for overseas contract actions was not
provided by the Department by the conclusion of audit fieldwork. Findings and
recommendations for overseas contract actions have not been provided in this audit report but
will be provided in a separate report.

Additionally, we were unable to determine the reliability of the contract actions population for
either domestic or overseas contract actions as of October 15, 2011, because of certain
limitations. (Details are in Appendix A of the report.)

To provide quantitative information about the nature of unauthorized commitments, specifically
COs exceeding their delegated authority on domestic contract actions, and to highlight root
causes of the deficiency, we present the data as reported by the Department.

We conducted this performance audit from February 2–October 15, 2011, in accordance with
Government Auditing Standards, issued by the Comptroller General of the United States. The
purpose of this report is to communicate the results of our audit and its related findings and
recommendations.

We would like to thank the Department offices involved for their cooperation during the course
of this audit.




Kearney & Company, P.C.
Alexandria, Virginia
October 15, 2011




                                        UNCLASSIFIED
                                   UNCLASSIFIED



Acronyms
Acronym      Definition
A/OPE        Bureau of Administration, Office of the Procurement Executive
A/LM/AQM     Bureau of Administration, Office of Logistics Management, Office of
             Acquisitions Management
A/LM/PMP     Bureau of Administration, Office of Logistics Management, Office of
             Program Management and Policy
CAP          Corrective Action Plan
CO           contracting officer
CS           contract specialist
Department   Department of State
EUR          Bureau of European and Eurasian Affairs
FAR          Federal Acquisition Regulation
GFMS         Global Financial Management System
Kearney      Kearney & Company, P.C.
OIG          Office of Inspector General




                                   UNCLASSIFIED
                                                            UNCLASSIFIED


                                                     TABLE OF CONTENTS


Executive Summary .............................................................................................................1

Background ..........................................................................................................................2

Objective ..............................................................................................................................3

Results of Audit ...................................................................................................................3
       Finding A. Contracting Officers Exceeded Their Warranted Authority Without
       Ratification ..............................................................................................................4
       Finding B. Monitoring of Controls To Identify Unauthorized Commitments
       Needs Strengthening ...............................................................................................7
       Finding C. Contract Specialists Were Inaccurately Identified as Contracting
       Officers ....................................................................................................................8

List of Recommendations ..................................................................................................10

Appendices
      Appendix A. Scope and Methodology..................................................................11
      Appendix B. Bureau of Administration, Office of Logistics Management,
      Office of Acquisitions Management, Response.....................................................14
      Appendix C. Bureau of Administration, Office of the Procurement Executive,
      Response ................................................................................................................16




                                                            UNCLASSIFIED
                                        UNCLASSIFIED


                                    Executive Summary
        Kearney & Company, P.C. (referred to as “we” in this report), conducted a performance
audit to quantify and determine the extent to which contracting officers (CO) were exceeding
their delegated procurement authority. We also identified the amount of obligations related to
Department contract actions (excluding grants and cooperative agreements) that exceeded the
delegated procurement authorities of the COs and therefore represented unauthorized non-
binding agreements. To conduct this audit, we attempted to complete a sampling-based
approach to identify the dollar value of contract actions initiated or modified during FYs 2008–
2010 for which the assigned COs exceeded their delegated procurement authority. This audit
was requested by the Department of State (Department), Office of Inspector General (OIG), as a
result of a control deficiency identified during the FY 2010 financial statement audit of the
Department.

        As of January 2012, we were unable to complete audit procedures for the overseas
contract actions included in our scope. Sufficient audit evidence was not provided by the
Department by the conclusion of audit fieldwork. Findings and recommendations will not be
provided in this audit report related to overseas contract actions. The period of performance has
been extended through March 31, 2012, to complete audit objectives for overseas contract
actions; findings and recommendations related to overseas contract actions will be provided in a
separate report. Additionally, we were unable to determine the reliability of the contract actions
population for either domestic or overseas contract actions as of October 15, 2011, because of
certain reporting limitations in the Global Financial Management System (GFMS).

         Based on our review of 63,551 domestic contract actions, totaling $19.2 billion, entered
into by the Department from FYs 2008–2010, we found that the impact of unauthorized
commitments generated by domestic COs exceeding their warrant authority was minor. Our
testing did confirm, however, that 21 domestic contract actions were not properly ratified and
that certain controls related to prevention and monitoring of unauthorized commitments and
warranted authority needed to be strengthened. For example, one exception identified a CO
with commercial warrant authority up to $5.5 million who entered into a contract action for
$20.7 million. We also identified a need to strengthen controls to clearly identify GFMS user
roles and privileges for contract specialists (CS). Without a formal ratification of unauthorized
commitments where appropriate, the Government is not bound by the agreement, placing
additional risk on the vendor of not being paid for goods and services delivered. The
Department is also not compliant with the Federal Acquisition Regulation (FAR) when
ratification procedures are not performed.

        We made recommendations to the respective bureaus and offices that focused on
improving internal controls within the current control system and improving processes related to
domestic contract actions. The February 7, 2012, response to the recommendations from the
Bureau of Administration, Office of Logistics Management, Office of Acquisitions Management
(A/LM/AQM), is in Appendix B, and the January 26, 2012, response from the A Bureau’s Office
of the Procurement Executive (A/OPE) is in Appendix C.



                                                 1
                                        UNCLASSIFIED
                                             UNCLASSIFIED


                                              Background
       We were separately engaged to audit the financial statements of the Department as of
September 30, 2010. In planning and performing our financial statement audit work, we
conducted testing of the internal controls over the Department’s procurement and payment
processes.

        Our test work over internal controls related to these processes identified a deficiency
related to the controls over contract authority delegated to COs. A deficiency in internal control
exists when the design or operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to prevent or detect and correct
misstatements on a timely basis.

       As part of the FY 2010 financial statement audit, we tested 139 obligations and
disbursement transactions to ensure that the CO who signed the obligating documents had the
proper authority to enter into the respective contracts, and we indentified 22 contract actions in
which we could not confirm that the CO had proper warrant authority. We found that the
Department did not have an effective process to ensure that COs adhered to the level of
procurement authority delegated to them by the Department. In several instances, additional
evidence was provided to clear the FY 2010 exceptions subsequent to the FY 2010 financial
statement audit.

      The FAR1 states that contracts may be entered into and signed on behalf of the
Government only by contracting officers. The FAR2 states the following:

        Contracting officers have authority to enter into, administer, or terminate
        contracts and make related determinations and findings. Contracting officers may
        bind the Government only to the extent of the authority delegated to them.
        Contracting officers shall receive from the appointing authority clear instructions
        in writing regarding the limits of their authority.

      Failure to follow these regulations is a violation that creates an unauthorized
commitment.

        An “unauthorized commitment” is defined in the FAR3 as “an agreement that is not
binding solely because the Government representative who made it lacked the authority to enter
into that agreement on behalf of the Government.” Unauthorized commitments violate Federal
law, Federal regulations, the Government-wide Standards of Conduct for Federal Employees,
and Department acquisition regulations. The process for converting an unauthorized
commitment to a legal contract is called “ratification,” which the FAR4 defines as “the act of
approving an unauthorized commitment by an official who has the authority to do so.” A CO
who exceeds delegated authority may make improper purchases, which increases the risk of

1 FAR 1.601(a), “Career Development, Contracting Authority, and Responsibilities–General.”
2 FAR 1.602-1(a), “Authority.”
3 FAR 1.602-3(a).
4 Ibid.

                                                  2
                                             UNCLASSIFIED
                                               UNCLASSIFIED

waste, fraud, or abuse. In addition, agreements for large dollar amounts are frequently complex.
If a CO executes agreements above his or her delegated authority, the CO may not have the
appropriate training, experience, or knowledge to properly execute the agreement. Without a
formal ratification of unauthorized commitments, the Government is not bound by the
agreement, which places additional risk on the vendor of not being paid for goods and services
delivered.

         Department of State Acquisition Regulations (DOSAR)5 require all unauthorized
commitments in excess of $1,000 to be submitted to the Department Procurement Executive for
ratification. The DOSAR requires substantial written documentation for the ratification to be
considered by the Procurement Executive, including a signed statement of the facts discussing
why normal acquisition procedures were not followed, a statement as to why the CO should not
be personally liable for the cost, a statement as to whether the CO has ever been responsible for
any other unauthorized commitments in the Department, and a statement as to the number of
unauthorized commitments processed by the responsible office within the last 3 calendar years
and the circumstances surrounding each of these actions. The responsible department or bureau
is required to clear the ratification request prior to final review and adjudication by the
Procurement Executive.

                                                   Objective
       The objective of this audit was to determine the extent to which COs exceeded their
delegated procurement authority. We also identified the amount of obligations related to
Department contract actions (excluding grants and cooperative agreements6) that exceeded the
COs’ delegated procurement authorities and therefore represent unauthorized, non-binding
agreements. We took the following actions:

       Determined the impact of unauthorized commitments on the Department.
       Identified the root cause(s) of the control deficiencies that could enable unauthorized
        commitments.
       Determined whether the Department has developed any corrective action plans (CAP) for
        the control deficiencies noted.
       Made recommendations on how the Department could better address the root cause(s) of
        the control deficiencies if necessary.




5 DOSAR 601.602-3, “Department of State Acquisition Regulation System–Ratification of unauthorized
commitments.”
6 An agency may provide financial assistance through various types of transactions, including grants and
cooperative agreements. These types of contractual instruments are outside the scope of this audit and require
separately issued authority.
                                                    3
                                               UNCLASSIFIED
                                          UNCLASSIFIED


                                          Results of Audit
        Based on our review of 63,551 domestic contract actions, totaling $19.2 billion, entered
into by the Department from FYs 2008–2010, we found that the impact of unauthorized
commitments generated by domestic COs exceeding their warrant authority was minor. Our
testing did confirm, however, that 21 domestic contract actions were not properly ratified and
that certain controls related to prevention and monitoring of unauthorized commitments and
warranted authority needed to be strengthened. Without formal ratification of known
unauthorized commitments where appropriate, the Department is not in compliance with
provisions of the FAR.

         We were unable to review a CAP to remediate the control deficiency for delegated
contract authority noted in the FY 2010 financial statement audit of the Department. This
occurred because A/LM/AQM, did not agree that a control deficiency existed. Therefore, a
formal CAP was not developed between the end of the FY 2010 financial statement audit and the
initiation of this performance audit.

        Additionally, as detailed in Appendix A, we were unable to complete audit procedures
for overseas contract actions. The Department did not provide sufficient audit evidence by the
end of audit fieldwork. We were also unable to determine the reliability of the contract actions
population for either domestic or overseas contract actions as of October 15, 2011, because of
certain limitations. Our findings and recommendations are as summarized.

Finding A. Contracting Officers Exceeded Their Warranted Authority
Without Ratification
        Out of 63,551 contract actions, we identified 21 instances7 (0.03 percent) in which the
CO exceeded his or her warranted authority without proper ratification. Our work was focused
on a population of domestic contract actions from FYs 2008–2010. The 21 instances were
determined using the warrant authority database maintained by A/OPE and comparing domestic
contract actions with warranted authority. The 21 instances were assigned to eight different COs
and totaled $44 million in contract actions. The exceptions were similarly distributed across
fiscal years, with six instances in FY 2008, seven in FY 2009, and eight in FY 2010.

        We found that a formal automated control in the procurement system did not exist to
prevent COs from exceeding their warrant authority. Instead, A/LM/AQM relied on a manual
contracts review process as part of its Quality Assurance Program, which relies upon self-review
by assigned COs and independent reviews by qualified contracting professionals who did not
participate in the contract action. A/LM/AQM’s Quality Assurance Plan outlines the review,
approval, and signature authority for A/LM/AQM contracts. However, this process was not


7 In our draft report, we identified 19 unauthorized commitments awarded by A/LM/AQM COs and two
unauthorized commitments by the Bureau of European and Eurasian Affairs (EUR). Both AQM and EUR identified
the two EUR contracts as awarded by the Frankfurt Regional Procurement Support Office, which is under the
Director of A/LM/AQM. Therefore, Table 1 was amended in the final report to identify 21 unauthorized
commitments awarded by A/LM/AQM.
                                               4
                                          UNCLASSIFIED
                                             UNCLASSIFIED

standardized to ensure that the warranted individual signing the contract action at the time of
execution had the necessary authority to do so.

       A/LM/AQM more specifically noted that contract volume at critical periods, team-based
contracting, and lack of training were additional causes for the 21 unauthorized commitments
without ratification. Specifically, seven contracts were executed during peak contract activity
periods, including fiscal year end or after annual appropriations were approved by Congress and
made available to the Department. Increased workload during these time periods placed
additional strain on existing controls. Four unauthorized commitments were developed and
executed by a team of COs and CSs. Upon final execution of the contract action, a CO with
inadequate warranted authority signed the document rather than the CO with overall
responsibility for the total contract and a higher level of warrant authority.

        Finally, according to A/LM/AQM, a misunderstanding of specific contract authority
requirements was also cited as a cause for one CO who had 10 unauthorized commitments out of
the 21 instances. Although there were 10 unauthorized commitments, the contract value of each
instance did not exceed $400,000. The Department indicated that additional training will be
provided to the CO.

       The 21 identified instances in which a CO exceeded his or her warranted authority
without ratification are listed in Table 1.
Table 1. Instances of Contracting Officers Exceeding Warrant Authority* Without
Ratification
                                                                                           System        Warrant 
Bureau         Contract #           Document #        Amendment # Dollar Amount Contract Date           Authority*
AQM      SALMEC02C0039         SALMEC02C0039         M0016             $        313,548.00   9/9/2009        100,000
AQM      SALMEC05D0063‐O014 SALMEC05D0063‐O014 M001                    $        116,396.00   2/4/2009        100,000
AQM      SLMAQM04C0030         SAQMMA08F3063         M014              $  20,785,250.00     1/14/2010    5,000,000
AQM      SALMEC05D0052         SAQMMA08F3782         M002              $        400,000.00  8/12/2009        100,000
AQM      SAQMPD07D0090         SAQMMA08F5525         M001              $    1,314,394.64    8/20/2008    1,000,000
AQM      SAQMMA08F5564         SAQMMA08F5564         0                 $        108,500.00   8/8/2008        100,000
AQM      SAQMMA08F6409         SAQMMA08F6409         0                 $        169,409.68  9/19/2008        100,000
AQM      SALMEC05D0052         SAQMMA09F0485         M004              $        140,834.00  2/16/2010        100,000
AQM      SALMEC04‐D0012        SAQMMA09F0575         0                 $        117,625.00  2/10/2009        100,000
AQM      SALMEC04D0012         SAQMMA09F0997         M001              $        168,200.00  8/12/2009        100,000
AQM      SAQMMA09F3206         SAQMMA09F3206         M003              $        209,229.00  6/22/2010        100,000
AQM      SALMEC05D0053         SAQMMA09F3670         0                 $        115,602.00  9/18/2009        100,000
AQM      SAQMMA09L0536         SAQMMA09L0536         M005              $    7,733,253.00    9/27/2009    5,500,000
AQM      SALMEC04D0012         SAQMMA10F0419         0                 $        136,780.00   3/5/2010        100,000
AQM      SALMEC04D0012         SAQMMA10F0963         0                 $        120,598.00  3/14/2010        100,000
AQM      SALMEC04D0012         SAQMMA10F0964         0                 $        135,120.00   4/1/2010        100,000
AQM      SALMEC05D0050         SAQMMA10F1951         0                 $        225,249.00   6/9/2010        100,000
AQM      SAQMPD05D1115         SAQMPD05D1115         M032              $    4,800,000.00   11/14/2007    1,000,000
AQM      SLMAQM04C0033         SAQMPD06FA294         M013              $    6,000,000.00    3/26/2010    5,000,000
AQM      GS27FU00001           SGE50008F0078         0                 $        375,178.50   4/3/2008        250,000
AQM      GS27FU00001           SGE50008F0081         0                 $        910,934.50   4/4/2008        250,000
         Total                                                         $  44,396,101.32
*Represents commercial warrant authority for commercial supplies and services.
                                                  5
                                             UNCLASSIFIED
                                UNCLASSIFIED

Recommendation 1. We recommend that the Director, Bureau of Administration, Office
of Logistics Management, Office of Acquisitions Management, assess the 21 identified
unauthorized commitments to determine whether ratification was appropriate. If the
ratification was appropriate, the process should be completed as described in the
Department of State Acquisition Regulation (subpart 601.602-3-70).

A/LM/AQM Response: A/LM/AQM agreed to assess the unauthorized commitments
identified “to determine whether ratification is appropriate” and further stated that it
“anticipates completing this assessment by mid-March 2012 and will forward the results
to the OIG.”

OIG Analysis: Based on the response, OIG considers the recommendation resolved,
pending further action. The recommendation can be closed pending OIG’s review and
acceptance of documentation showing that A/LM/AQM has completed its assessment of
the identified unauthorized commitments to determine whether ratification is appropriate.

Recommendation 2. We recommend that the Executive Director, Bureau of European
and Eurasian Affairs, assess the two identified unauthorized commitments to determine
whether ratification was appropriate. If the ratification was appropriate, the process
should be completed as described in the Department of State Acquisition Regulation
(subpart 601.602-3-70).

A/LM/AQM Response: A/LM/AQM stated that the two identified commitments
mentioned occurred under contracting authority in the Frankfurt Regional Procurement
Support Office, “which falls under the supervisory purview of the director of AQM.”
A/LM/AQM agreed to assess the two commitments “to determine whether ratification is
appropriate” and stated that it “anticipates completing this assessment by mid-March
2012 and will forward the results to the OIG.”

OIG Analysis: OIG amended the final report to identify A/LM/AQM as the action office
responsible for the two RPSO contracts: Nos. GS27FU0001 SGE50008F0078 and
SGE50008F0081. OIG also coordinated this action with the Executive Director, Bureau
of European and Eurasian Affairs. Therefore, this recommendation is closed.

Recommendation 3. We recommend that the Director, Bureau of Administration,
Office of Logistics Management, Office of Acquisitions Management, standardize the
form and scope of contract reviews per the Quality Assurance Plan to confirm the
warranted authority of the signing official before a contract action is executed.

A/LM/AQM Response: A/LM/AQM agreed to “continue using the quality assurance
plan for contract reviews” and stated that it “will research the feasibility of a systems
solution.”

OIG Analysis: Based on the response, OIG considers the recommendation resolved,
pending further action. The recommendation can be closed pending OIG’s review and


                                     6
                                UNCLASSIFIED
                                       UNCLASSIFIED

       approval of documentation showing A/LM/AQM’s research regarding the feasibility of
       an automated systems solution.

Finding B. Monitoring of Controls To Identify Unauthorized Commitments
Needs Strengthening

        A/OPE does not have a formal monitoring control to proactively identify unauthorized
commitments and ensure that ratification occurs on all unauthorized commitments exceeding
$1,000. Since an automated procurement system control preventing COs from entering into
agreements beyond their warranted authority does not exist, A/OPE relies on an extensive
communication, certification, and training plan to issue warrants and educate warranted officials
of their responsibilities and limits. A/OPE aligns the domestic CO training program with the
Federal Acquisition Certification in Contracting. This program offers junior, intermediate, and
senior levels of contracting certification based on education, general competencies, training
requirements, and experience. Applicants must meet the demands of this program to qualify for
and receive a domestic warrant.

         Current A/OPE processes and procedures are reactive in nature and rely on individuals to
create unauthorized commitments or cognizant management officials to notify A/OPE of the
need for ratification. A/OPE leverages a ratification database to track known requests for
ratification, but it cannot ensure this database is complete or that it captures all instances in
which a CO exceeded his or her warranted authority. The ratification database logged
approximately 188 unauthorized commitments from FYs 2008–2010, including 13 actions
greater than $100,000. The majority of unauthorized commitments in the ratification database
relate to low-dollar (less than $20,000) overseas agreements.

        We found that communications issued through the A/OPE Web site and intra-
Departmental procurement circular reinforced A/OPE’s policy both domestically and overseas.
However, further controls are needed to detect unauthorized commitments. The 21 unauthorized
commitments discussed in this report were not identified by the Department. While A/OPE
leverages a continuous learning model to offer refresher training and briefings to warranted
officials, including information on the severity of unauthorized commitments, these training and
communication strategies do not prevent or detect the creation of unauthorized commitments.

       Recommendation 4. We recommend that the Procurement Executive, Bureau of
       Administration, Office of the Procurement Executive, with support from the Bureau of
       Administration, Office of Logistics Management, Office of Acquisitions Management,
       develop internal controls to compare contract actions against warranted authority at
       defined, recurring intervals and initiate ratification processes if necessary for any
       identified unauthorized commitments, in accordance with Federal and Department of
       State standards.

       A/OPE Response: A/OPE stated that this recommendation “requires a process” for
       A/LM/AQM “to validate the contracting authority of the contracting officer during the
       review process.” A/OPE further stated that because the impact of the finding was
       “minor,” it recommended that A/LM/AQM’s corrective action “be implemented and
                                            7
                                       UNCLASSIFIED
                                        UNCLASSIFIED

       tested before adding additional internal controls that may prove unnecessary” and that
       “[f]urther internal controls, if required, should be a part of the A/LM/AQM acquisition
       data validation process.”

       OIG Analysis: OIG believes that a compensating control at the A/OPE level would serve
       as a further check for instances of noncompliance. However, based on A/OPE’s response
       and the concentration of exceptions at A/LM/AQM, OIG has amended the
       recommendation to include A/LM/AQM support.

       OIG considers the recommendation resolved, pending further action by A/OPE and
       A/LM/AQM. The recommendation can be closed when OIG receives A/LM/AQM’s
       response, with A/OPE’s concurrence indicated, and reviews and accepts documentation
       showing updated guidance or procedures to implement a preventative internal control that
       will compare contract actions with warranted authority at defined or recurring intervals.

Finding C. Contract Specialists Were Inaccurately Identified as Contracting
Officers
       We found instances in which the CS was inaccurately identified as the CO in the
financial management system and on hard-copy contract documents. The GFMS – Momentum
Acquisitions system allows CSs to have the CO user role within the system. These inaccuracies
may be misleading to users of financial records and contract documents, including Department
management and third-party vendors. In addition, the inaccurate information prevents effective
monitoring of contract actions to identify unauthorized commitments using system data, since
only the hard copy of the contract can be used to identify the CO.

       CSs possess knowledge of pre-award and post-contract award procedures to plan and
conduct the contracting process. However, CSs do not have delegated signatory authority to
execute contracts. In these instances, we identified that a CS is able to prepare contract files,
which causes the CS’s name to inaccurately post to the contract action as the designated CO
because of incorrect permissions in the CS’s user profile that were added during the initial user
setup. However, the CS does not have the ability to obligate funds as a result of this user role
error.

        During the audit, A/LM/AQM agreed that CSs should not be assigned the CO user profile
in GFMS. A/LM/AQM officials stated that they had completed a review of conflicting CS user
roles during August 2011 and had corrected 13 identified users. As a result, according to
A/LM/AQM officials, no AQM GFMS user without warrant authority can have his or her user
identification inserted into the CO field on GFMS procurement obligating documents.

       Recommendation 5. We recommend that the Bureau of Administration, Office of the
       Procurement Executive (A/OPE), review contract specialist user roles and privileges to
       ensure that proper segregation of duties exists and confirm that user roles are consistent
       with position descriptions and compatible responsibilities. A/OPE, with assistance from
       the Bureau of Administration, Office of Logistics Management, should implement
       procedures that ensure that new user profiles are set up correctly.
                                             8
                                        UNCLASSIFIED
                               UNCLASSIFIED

A/OPE Response: A/OPE stated that the Bureau of Administration, Office of Logistics
Management, Office of Program Management and Policy (A/LM/PMP) and A/LM/AQM
manage Momentum Acquisitions and user roles. A/OPE further stated: “AQM is
implementing a review process for verifying roles and has already adjusted deviant user
profiles. Procedures to ensure that new user profiles are set up correctly would be
developed and validated by A/LM/PMP and/or A/LM/AQM.”

OIG Analysis: During the audit, OIG observed that A/LM/AQM did review and correct
existing user profiles. OIG has amended the recommendation to include assistance by
A/LM/PMP and/or A/LM/AQM to better align user profiles to acquisition systems
responsibilities. A/LM/PMP is responsible for establishing policy for the management
and control of Department property acquisitions, and the Foreign Affairs Manual (14
FAM 122) requires A/LM/PMP to manage the Integrated Logistics Management System.
OIG considers this recommendation resolved, pending further action by A/OPE and by
A/LM/PMP and/or A/LM/AQM. The recommendation can be closed when OIG reviews
and accepts documentation showing that A/LM/PMP and/or A/LM/AQM, with A/OPE’s
concurrence, has reviewed and corrected existing user profiles to account for acquisition
systems responsibilities.




                                    9
                               UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations
Recommendation 1. We recommend that the Director, Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, assess the 21 identified
unauthorized commitments to determine whether ratification was appropriate. If the ratification
was appropriate, the process should be completed as described in the Department of State
Acquisition Regulation (subpart 601.602-3-70).

Recommendation 2. We recommend that the Executive Director, Bureau of European and
Eurasian Affairs, assess the two identified unauthorized commitments to determine whether
ratification was appropriate. If the ratification was appropriate, the process should be completed
as described in the Department of State Acquisition Regulation (subpart 601.602-3-70).

Recommendation 3. We recommend that the Director, Bureau of Administration, Office of
Logistics Management, Office of Acquisitions Management, standardize the form and scope of
contract reviews per the Quality Assurance Plan to confirm the warranted authority of the
signing official before a contract action is executed.

Recommendation 4. We recommend that the Procurement Executive, Bureau of
Administration, Office of the Procurement Executive, with support from the Bureau of
Administration, Office of Logistics Management, Office of Acquisitions Management, develop
internal controls to compare contract actions against warranted authority at defined, recurring
intervals and initiate ratification processes if necessary for any identified unauthorized
commitments, in accordance with Federal and Department of State standards

Recommendation 5. We recommend that the Bureau of Administration, Office of the
Procurement Executive (A/OPE), review contract specialist user roles and privileges to ensure
that proper segregation of duties exists and confirm that user roles are consistent with position
descriptions and compatible responsibilities. A/OPE, with assistance from the Bureau of
Administration, Office of Logistics Management, should implement procedures that ensure that
new user profiles are set up correctly.




                                             10
                                        UNCLASSIFIED
                                               UNCLASSIFIED


                                                                                                Appendix A

                                        Scope and Methodology
         Kearney & Company, P.C. (referred to as ”we” in this appendix), assessed performance
criteria for this audit based on Federal Acquisition Regulation (FAR)1 and Department of State
(Department) guidance. We focused on the impact and analyses of the root cause(s) of the
control deficiencies and the need for development of corrective action plans (CAP). The scope
of the audit included contract actions initiated or modified during FYs 2008–2010.

        This audit, conducted from February 2–October 15, 2011, was conducted in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.

        In the Planning Phase of the audit, we developed an understanding of the process for
delegating warranted authority, determined training and certification requirements, and identified
controls in place to monitor the assignment of warrant authority. Additionally, we gained an
understanding of the Department’s ratification procedures and controls. The main goal of the
Planning Phase was to identify the Department’s established internal controls for preventing and
ratifying unauthorized commitments.

        In the Testing Phase, we developed performance audit criteria, which were accepted by
the Office of Inspector General (OIG). To test the Department’s compliance with procurement
regulations, we attempted to obtain two separate populations of contract actions from FYs 2008–
2010. The actions were identified as contract actions completed domestically, which were
evaluated at 100 percent, or contract actions completed overseas, which were sampled based on
identification of high-risk posts, countries, bureaus, and regions. As previously noted, we were
unable to verify the reliability of the contract actions population for either domestic or overseas
contract actions as of October 15, 2011, because of certain reporting limitations in the Global
Financial Management System (GFMS). As such, the procedures performed as discussed in this
report were performed over the available domestic contract action population.

        As of the date of this report, we were unable to complete audit procedures over the
overseas contract actions population. Sufficient audit evidence was not provided by the
Department by the conclusion of audit fieldwork. Findings and recommendations for overseas
contract actions are not provided in this audit report. The period of performance has been
extended through March 31, 2012, to complete audit objectives for overseas contract actions;
findings and recommendations related to overseas contract actions will be provided in a separate
report.




1   FAR 1.602-1, “Career Development, Contracting Authority, and Responsibilities–Authority.”
                                                    11
                                               UNCLASSIFIED
                                              UNCLASSIFIED

        Additionally, we were unable to determine the reliability of the contract actions
population for both domestic and overseas contract actions as of October 15, 2011, because of
the following limitations:

    	   GFMS, the Department’s accounting system, lacked a standardized report for viewing
         domestic contract actions completed by all bureaus with contracting authority.
    	   GFMS does not interface the necessary procurement information from overseas
         procurement systems to confirm a complete and accurate overseas contract actions
         population.

        We leveraged multiple procurement data sources, including GFMS and the Federal
Procurement Data System – Next Generation2 (FPDS-NG), to develop a complete population of
contract actions from FYs 2008–2010 but were unable to confirm the completeness and accuracy
of the population. Nevertheless, to provide quantitative information about the nature of
unauthorized commitments, specifically contracting officers (CO) exceeding warranted
authority, and to highlight root causes of the deficiency, we presented the data as reported by the
Department and acquired through FPDS-NG.

Review of Internal Controls

        During our review of internal controls, we determined whether contracts were entered
into within a CO’s warranted authority and whether Federal and Department standard processes
and procedures were followed by taking the following actions:

    	   Performed walkthroughs and interviews to gain an understanding of the Department’s
         internal control processes related to the issuance of warrant authority and the processes
         for identifying and ratifying unauthorized commitments. We confirmed that corrective
         action plans were not prepared to address the deficiency.
    	   Reviewed 63,551 domestic contract actions provided by the Department by comparing
         date in the GFMS with date in the warrant authority database. For all items that indicated
         that the CO was not operating in accordance with his or her warranted authority, we
         followed up with the Department to obtain additional information.
    	   Reviewed hard-copy warrants to confirm the information contained in the warrant
         authority database was accurate. In some instances, we noted that timing delays between
         issuance of a warrant and the update of the database caused false exceptions.
    	   Reviewed hard-copy files provided by the Bureau of Administration, Office of Logistics
         Management, Office of Acquisitions Management (A/LM/AQM), for each instance
         indicating that a CO was not operating in accordance with his or her warranted authority.
         We confirmed in all 21 instances that a CO had exceeded his or her warranted authority
         without ratification.


2 FPDS-NG is the contract actions reporting Web site developed and managed by the General Services
Administration. FPDS-NG provides real-time contract information to support policy development, trend analysis,
and special reporting for the President, Congress, agency executives, and the public. The FAR requires that
agencies report in FPDS-NG all contracts for which the estimated value is $3,000 or more and any modifications to
those contracts regardless of dollar amount.
                                                   12
                                              UNCLASSIFIED
                                        UNCLASSIFIED

       We determined that policies, procedures, and controls for preventing unauthorized
commitments needed to be strengthened. In addition, the Department’s monitoring of
unauthorized commitments needs to be improved to ensure timely ratification of contracts.

        We noted that the GFMS – Momentum Acquisition system does not have automated
controls in place to prevent COs from exceeding their warranted authority. The system is not
interfaced with the warrant authority database in order to restrict contract actions that may be
above a CO’s authority. Additionally, system controls are not in place to alert system users and
monitor the existence of an unauthorized commitment that must be ratified.

        The GFMS – Momentum Acquisitions system allows contract specialists (CS) to have the
CO user role within the system. A/LM/AQM officials completed a review of conflicting CS user
roles during August 2011 and stated that 13 identified users had been corrected. Audit
procedures were not performed over A/LM/AQM’s review, since this issue was outside the
scope of this performance audit.

       The Department has not developed an effective process to review historical information
contained in the warrant authority database. Throughout our review of contract actions, we
noted instances in which the effective date on a CO’s warrant was inaccurate because of timing
delays. Additionally, attempts by the warrant database administrator to validate active warrants
frequently remained unresolved.

        Records management and retention policies for contract actions were not standardized to
ensure that documentation files were readily available, sufficient to constitute a complete history
of the transaction, and able to provide a complete audit trail.

Use of Computer-Processed Data

        We used computer-processed data found in GFMS, FPDS-NG, and the internally
developed warrant authority database. We found that GFMS did not have a standardized
reporting process in place to ensure the completeness, timeliness, and accuracy of contract
actions information. Reconciling FPDS-NG contracts data was outside the scope of this
performance audit.




                                             13
                                        UNCLASSIFIED
                                    UNCLASSIFIED

                                                                                           Appendix B




· ,., .                                        United States Department of State
\:':"JI
 ,¥
\';/                                          Washington , D. C. 20520
                                                           D.C.

                                               February 7, 2012



   MEMORANDUM

   TO:
   TO:          OIG/AUD - Evelyn Klemstine

   FROM:        AlLMlAQ~thY
                AlLM/AQ~thy Read
   SUBJECT: Draft Report - Draft Report on Audit of Contracting Officers
            Exceeding Delegated Procurement Authority

   Below is the Bureau of Administration's response to the subject draft audit report.
   Benita Williams in AlLMlAQM is the point of contact and can be reached at 703 -
   875-5230.

   Recommendation I.    1. We recommend that the Directo    r, Bureau of Administration,
                                                    Director,
   Office of Logistics Management, Office of Acquisitions Manag       ement, assess the
                                                               Management,
   19 identified unauthorized commitments to determine whether ratification was
                Tfthe
   appropriate. If the ratification was appropriate, the process should be completed as
                                                                           60\.602-3-
   described in the Department of State Acquisition Regulation (subpart 601.602-3-
   70).

   A1LM/AQM's response (02/07/2012)
   AlLMlAQM's              (02/07/2012):: AQM agrees to assess the 19 identified
   commitments to determine whether ratification is appropriate. AQM anticipates
   completing this assessment by mid- March 2012 and will forward the results to the
   OIG .

   Recommendation 2. We recommend that the Executive Director, Burea   Bureau u of
   European and Eurasian Affairs (EUR), assess the two identified unauthorized
                                       ratification
   commitments to determine whether rati   fication was appropriate. If the ratification
   was appropriate, the process should be completed as described in the Department
                                             60\.602 -3 -70)
   of State Acquisition Regulation (subpart 601.602      70)..

   AILMlAQM's
   AlLM/AQM's response (02/07/2012):
                       (02/07/2012): AQM notes that the two identified
   commitments mentioned
   commitments mentioned in Recommendation 22 occurred
                         in Recommendation    occurred under
                                                       under the
                                                             the contracting
                                                                 contracting




                                         14
                                    UNCLASSIFIED
                                 UNCLASSIFIED




authority in the Frankfurt Regional Procurement Support Office (R(RPSO),
                                                                   PSO), which
falls under the supervisory purview of the director of AQM. T herefore, AQM
agrees to
agrees  to assess
           assess the
                  the two
                      two identified
                          identified commitments  to detennine
                                     commitments to  determine whether ratification
                                                               whether ratification
is appropriate. AQM anticipates completing this assessment by mid-March 2012
and will forward the results to the OIG.

Recommendation 3. We recommend that the Director, Bureau of Administration
Recommendation                                                       Administration,,
Office of Logistics Management, Office of Acquisitions Management, standardize
the form and scope of contracts reviews per the Quality Assurance Plan to confirm
the warranted authority of the signing official before a contract action is executed.

AlLMlAQM's response (02107/2012): AQM agrees to continue using the quality
assurance plan for contract reviews. Additionally, AQM will research the
feasibility of a systems solution.




                                      15
                                 UNCLASSIFIED
                                       UNCLASSIFIED

                                                                                                         Appendix C



                                                                United States Department of State

                                                                 Washington,
                                                                 WashingTOn , D.C. 20520




January 26, 2012



MEMORANDUM



TO:            OIG-- Harold W
               OIG          W .. Geisel

F ROM:         NOPE-- Corey M. Rindner
               AlOPE                         ~ '"
                                               ""' . ~

SUBJECT:       Draft Report on Audit of Contracting Officers Exceeding Delegated Procurement
               Authority January 2012



AfOPE appreciates the opportunity to respond to the subject audit report. We concur that the
AlOPE
impact of unauthorized commitments generated by domestic contracting officers exceeding their
warrant authority is minor based on OIG identification of 21 instances out of 63
                                                       of21                   63,,551 contract
actions (0 .03 percent).
        (0.03

The following two recommendations are addressed to AlOPE. Our comments follow the
reconunendations
recommendations :

Recommendation 4: We recommend that the Procurement Executive, Bureau of
Administration, Office of the Procurement Executive, develop internal controls to compare
contract actions against warranted authority at defined, recurring intervals and initiate ratification
processes if necessary for any identified unauthorized commitments in accordance with Federal
and Department standards.

Response:: Recommendation 3 requires a process for AQM to validate the contracting authority
Response
of the contracting officer during the contract review process. Because the impact of the finding
is minor, OPE recommends that the AQM corrective action be implemented and tested before
adding additional internal controls that may prove UIUlecessary.
                                                    uIUlecessary. Further internal controls, if
required,, should be part of the AILMlAQM
required                         AlLMlAQM acquisition data validation process.




                                            16
                                       UNCLASSIFIED
                                      UNCLASSIFIED




Recommendation 5: We recommend that the Bureau of Administration
Recommendation                                             Administration,, Office of the
Procurement Executive (NOPE),
                        (NOPE). review contract specialist user roles and privilege
                                                                             privilegess to ensure
proper segregation of duties exists and confinn that user roles are consistent with
                                                                               with position
descriptions and compatible responsibilities.
                             responsibi lities. NOPE should also implement procedures that
ensure that new user profiles are set up correctly.

Response: AlLMIPMP
            NLMlPMP and AlLMi
                            NLMI AQM manage Momentum Acquisitions and user roles. AQM
is implementing a review process for verifying roles and has already adjusted deviant user
profiles. Procedures to ensure that new user profiles are set up correctly would be developed and
validated by AlLMlPMP
             AlLMJPMP andior
                          and/or AlLMI
                                 AlLMJ AQM.




                                           17
                                      UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
                 of Federal programs
            and resources hurts everyone.



         Call the Office of Inspector General
                      HOTLINE
                     202/647-3320
                  or 1-800-409-9926
        to report illegal or wasteful activities.


               You may also write to
             Office of Inspector General
              U.S. Department of State
               Post Office Box 9778
                Arlington, VA 22219

       Please visit our Web site at oig.state.gov

           Cables to the Inspector General
          should be slugged “OIG Channel”
              to ensure confidentiality.
UNCLASSIFIED




UNCLASSIFIED
